LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

March 1, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

JEAN ELIZABETH WINSTON, ROBERT E. HENDERSON, TEMPORARY
ADMINISTRATORS OF THE ESTATE OF DYLAN MARK WALSH V. MARK
ANTHONY WALSH

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on March 1,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Respondent:
RESPONDENT:
Keith Johnston
David Pope
Spivey, Pope, Green & Greer, LLC
4875 Riverside Drive, Suite 200
Macon, Georgia 31210
478-254-8866 Tel
478-254-8980 Fax
kjohnston@spgglaw.com
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of March 2021.

